BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in AMN
Services, LLC v. Verna Clarke & Laura Wittmann, on
behalf of themselves and others similarly situated, was
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day and e-mail service
to the following parties listed below, this 26th day of
August, 2021:
Matthew B. Hayes
Kye D. Pawlenko
Hayes Pawlenko LLP
1414 Fair Oaks Avenue
Unit 2B
South Pasadena, CA 91030
(626) 808-4357
mhayes@helpcounsel.com
kpaw lenko@helpcounsel.com
Counsel for Respondents
Paul D. Clement
George W. Hicks, Jr.
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Kevin M. Neylan, Jr.
Kirkland & Ellis LLP
601 Lexington Ave.
New York, NY 10022

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
' Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sarah Kroll-Rosenbaum
AkermanLLP
601 West Fifth Street
Suite 300
Los Angeles, CA 90071
Joel D. Bertocchi
AkermanLLP
71 South Wacker Dr.
47th Floor
Chicago, IL 60606

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 26, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

~~~ ~ 1 dOd(
(j7J~JJ ~ h ~
Notary Public
~
CJ

Date:

[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
rqbn1ary 14, 2023

